               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Timeliness of Mail Processing at
    Processing and Distribution Centers

                       Audit Report




                                         September 28, 2012

Report Number NO-AR-12-010
                                                                   September 28, 2012

                                                  Timeliness of Mail Processing at
                                               Processing and Distribution Centers

                                                        Report Number NO-AR-12-010



BACKGROUND:
The U.S. Postal Service is facing one of    delayed in FY 2011. Much of this
the most difficult challenges in its        decline can be attributed to
history, reporting a net loss of            management emphasis on delayed mail
$5.2 billion in the 3rd quarter of fiscal   and expanded use of the Intelligent
year (FY) 2012. This was subsequent to      Mail® barcode (IMb).We identified
a net loss of 5.1 billion in FY 2011. One   several issues that contributed to mail
factor driving these losses is the          delays, including improper color coding,
continual decline in mail volume, falling   inaccurate reporting, underutilization of
from its peak of 213 billion pieces in      automation, floor congestion, incomplete
FY 2006 to 168 billion in FY 2011.          operating plans, and a lack of mail
                                            inventory visibility. Delayed mail
This report summarizes the Postal           adversely impacts mailers and other
Service’s progress in reducing delayed      Postal Service customers, negatively
mail. The Postal Service considers mail     impacts operational efficiency and
delayed when it is not processed or         service scores, and could result in
dispatched to meet its established          additional revenue losses.
delivery day. Our audit objective was to
assess the timeliness of mail processing    WHAT THE OIG RECOMMENDED:
in processing and distribution centers      We recommended the manager,
(P&DCs).                                    Processing Operations, evaluate
                                            operations, including consolidations, to
WHAT THE OIG FOUND:                         reduce the amount of delayed mail in
In FY 2012, the Postal Service made         the network and ensure that field
significant progress reducing the           personnel are properly trained in the
amount of delayed mail at the 43 largest    color-coding of Standard Mail as well as
P&DCs in its network. They also made        the counting and reporting of delayed
improvements in service performance         mail in accordance with policies. We
scores as measured by the Intelligent       also recommended the manager,
Mail Accuracy and Performance               Processing Operations, increase
System®. Service performance                investment in and employee access to
achievement scores rose from                the IMb tracking system, or other tools,
81.2 percent to 95.2 percent in FY 2012.    to assist management with identifying
                                            potential mail processing problems that
Through Quarter 3, FY 2012, about 1.4       could result in delayed mail.
billion pieces of mail have been delayed
while about 3.5 billion pieces were         Link to review the entire report
September 28, 2012

MEMORANDUM FOR:            FRANK NERI
                           MANAGER, PROCESSING OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Timeliness of Mail Processing at
                           Processing and Distribution Centers
                           (Report Number NO-AR-12-010)

This report presents the results of our audit of the Timeliness of Mail Processing at
Processing and Distribution Centers (Project Number 12YG032NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    David E. Williams, Jr.
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Timeliness of Mail Processing at Processing and                                                                    NO-AR-12-010
 Distribution Centers


                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delayed Mail Volumes..................................................................................................... 2

     Causes....................................................................................................................... 3

     Color-Coding Procedures .......................................................................................... 3

     Periodical Mail Staging and Tagging.......................................................................... 4

     Machine Utilization ..................................................................................................... 5

     Mail Transport Equipment Congestion ....................................................................... 7

     Operational Adjustments During Consolidations ........................................................ 7

     Mail Visibility .............................................................................................................. 8

     Service Scores ........................................................................................................... 8

     Other Matters ............................................................................................................. 9

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 10

Appendix A: Additional Information ............................................................................... 11

     Background .............................................................................................................. 11

     Objective, Scope, and Methodology ........................................................................ 11

     Prior Audit Coverage................................................................................................ 12

Appendix B: Other Impacts ........................................................................................... 14

Appendix C: Delayed Mail Trends ................................................................................. 16

Appendix D: Glossary.................................................................................................... 17
Timeliness of Mail Processing at Processing and                                               NO-AR-12-010
 Distribution Centers


Appendix E: Management’s Comments ........................................................................ 18




                                           Restricted Information
Timeliness of Mail Processing at Processing and                                                 NO-AR-12-010
 Distribution Centers


Introduction

This report presents the results of our audit on the timely processing of mail at
processing and distribution centers (P&DCs) nationwide (Project Number
12YG032NO000). The audit objective was to assess the timeliness of mail processing
at the P&DCs. This self-initiated audit addresses operational risk. See Appendix A for
additional information about this audit.

Mailers are concerned about the Postal Service’s ability to process mail timely,
especially during peak mailing periods such as the fall mailing season.1 For example,
during the 2010 fall mailing season,2 the Postal Service delayed about 3.4 billion
mailpieces, or 6 percent of total mail volume at P&DCs and facilities. This represented a
delayed mailpiece increase of 904 million, or 37 percent over the previous year. The
Postal Service considers mail delayed in processing when it does not meet established
mail processing goals; however, the mail piece may still be dispatched in time to meet
its expected delivery date. In response to mailer concerns, the Postal Service increased
its emphasis on processing mail timely.3

Conclusion

The Postal Service made progress in improving the timeliness of mail processing by
reducing the amount of delayed mail from the previous year and improving service
performance for the timely delivery of mail. These improvements can be largely
attributed to initiatives implemented by the Postal Service to address delayed mail.

These initiatives have resulted in significant decreases in delayed mail, reducing
delayed mail from 3.5 billion in fiscal year (FY) 2011 to approximately 1.4 billion in the
dhurd@uspsoig.govfirst 3 quarters of FY 2012. While the Postal Service is to be
commended for these improvements, there remain opportunities to further reduce
delayed mail at the P&DCs. Based on our current work,4 and previous audits (see
Appendix A), we identified several factors that contribute to mail delays:

   Some mail containers were not properly color coded.

   Delayed mail was not always accurately reported, sometimes underestimating the
    amount of delayed mail.

   Automation capability was not always utilized.


1                                                                                                     ®
  Generally, the Postal Service’s performance is impacted in the fall due to higher than normal Standard Mail
volumes in response to increases in advertising campaigns for back to school and winter holidays.
2
  October 1 through December 31.
3
  See Postal Service’s management comments contained in Postal Service Performance During the 2010 Fall Mailing
Season (Report Number NO-AR-11-007, dated September 7, 2011).
4
  We conducted site visits to the North Houston P&DC and the St. Louis P&DC.
                                                          1
Timeliness of Mail Processing at Processing and                                                                 NO-AR-12-010
 Distribution Centers


   In some cases, excess mail transport equipment (MTE) caused congestion on the
    workroom floor.

   Some operating plans were not optimized including transportation schedules,
    staffing, sort plans, and floor plan layout, particularly when implementing facility
    consolidations and realignments.

   Managers did not always have good visibility of their mail inventory.

Addressing these issues and continuing the delayed mail initiatives in process should
promote operational efficiency, increase customer satisfaction, and protect revenue.
Although delayed mail is trending downward, as customers experience delays with their
mailings, it could cause some to seek alternative delivery methods. We conservatively
estimated that 1 percent of the total delayed mail5 totaling $17.3 million in revenue could
be at risk if customers elect to utilize alternative delivery methods. See Appendix B for a
detailed explanation of revenue at risk.

Delayed Mail Volume

Overall, delayed mail volume in FY 2012 for the 43 largest plants have
decreased compared to FYs 2010 and 2011. Delayed mail as a percentage of first-
handled pieces (FHP6) is 2.6 percent through the first three quarters of FY 2012, down
from 4.8 percent for FY 2011 and 3.8 percent for FY 2010 (see Table 1).

                                    Table 1: Percentage of Delayed Mail


                                               Delayed                                     Delayed Mail as
                        Fiscal                   Mail                   FHP                a Percentage of
                         Year                  Volume                  Volume                FHP Volume
                        2010                2,762,408,584          73,138,957,740               3.8%
                        2011                3,522,231,269          73,989,841,481               4.8%
                        2012                1,406,862,269          54,826,507,708               2.6%
              Source: Enterprise Data Warehouse (EDW).

Much of this decline in delayed mail can be attributed to the Postal Service’s increased
focus on reducing delayed mail. During FY 2011, the Postal Service increased daily
management emphasis on delayed mail volumes, initiated plant level service reviews to
validate delayed mail counts and expanded the use of the Service Performance
Diagnostic and Intelligent Mail® barcode (IMb) by providing IMb reports showing plant
managers where their mail was in the processing system.



5
  Delayed mail is identified as failed pieces in the Intelligent Mail Accuracy and Performance System (iMAPS). Period
used is Quarter 4 FY 2011 through Quarter 3 FY 2012.
6
  A first- handling piece is a letter, flat, or parcel that receives its initial distribution at a Postal Service facility. Each
mailpiece distributed in an office receives one and only one FHP count.

                                                               2
Timeliness of Mail Processing at Processing and                                             NO-AR-12-010
 Distribution Centers


These initiatives have resulted in significant decreases in delayed mail. For example, in
the first 3 quarters of FY 2012, the 43 largest P&DCs delayed about 1.4 billion
mailpieces. By comparison, about 3.5 billion mailpieces were delayed in FY 2011 and
about 2.8 billion mailpieces were delayed in FY 2010. With the exception of Priority
Mail, all types of mail experienced a decrease in delays from FYs 2011 to 2012 (see
Table 2).

                              Table 2: Delayed Mail Volumes by Mail Type

                                                                                Package
               All Priority         All FCM      Periodicals   All Standard     Services
 Fiscal         Delayed             Delayed       Delayed         Delayed       Delayed
 Year          Processing          Processing    Processing     Processing     Processing       Total
 2010            1,829,412          81,441,835   117,300,416   2,561,280,807      556,114   2,762,408,584
 2011            2,135,136          99,244,517   165,232,078   3,254,675,764      943,774   3,522,231,269
      7
 2012            1,838,825          31,767,569    76,050,153   1,296,721,365      484,357   1,406,862,269
Source: EDW.

39 U.S.C. § 403, Part 1, Chapter 4, states:

            “The Postal Service shall plan, develop, promote, and provide
            adequate and efficient postal services at fair and reasonable rates
            and fees.”

Causes

The following factors contributed to mail delays:

       Some mail containers were not properly color coded.

       Delayed mail was not always accurately reported, sometimes underestimating the
        amount of delayed mail.

       Automation capability was not always utilized.

       In some cases, excess MTE caused congestion on the workroom floor.

       Some operational plans were not optimized to align transportation schedules,
        staffing and sort plans, and floor plan layouts, particularly when implementing
        consolidations and realignments.

       Managers did not always have good visibility of their mail inventory.




7
    First 3 quarters of FY 2012.

                                                        3
Timeliness of Mail Processing at Processing and                                                      NO-AR-12-010
 Distribution Centers


Color-Coding Procedures

According to the national color-code policy for Standard Mail, color-coding procedures
provide a guide to maintaining service goals for Standard Mail. Color coding of Standard
Mail allows for the processing of mail in a first-in, first-out (FIFO8) manner. Additionally,
the tag identifies the scheduled delivery day of the mail and allows for accurate delayed
mail reporting. By not accurately color coding the mail, the Postal Service cannot ensure
timely processing, dispatch, and delivery of Standard Mail. Missing or incomplete
color-code tags could lead to inaccurate reporting of delayed and on-hand mail. During
our past audits and site visits, we noted the following examples of mail that was not
properly color coded (see Figure 1).

                  Figure 1: Incomplete Color-Code Tag Without Time or Date9




            Source: U.S. Postal Service Office of Inspector General (OIG) Consolidation of Mail Processing
            at the Mansfield, OH Customer Service Mail Processing Center (Report Number NO-AR-12-003,
            dated January 20, 2012).

Periodical Mail Staging and Tagging

Prior reviews found instances of Periodical mail improperly staged and tagged as
Standard Mail resulting in underreporting and mail delays. Periodical mail has different
delivery standards. For example, Periodicals have a delivery service standard of 1 to 9
days, while Standard Mail has a standard of 3 to 10 days. Improperly tagging
Periodicals as Standard Mail results in incorrect reporting and hindering processing mail
in a FIFO manner (see Figure 2).



8
    Mail is staged and processed based on order of receipt.
9
    Color codes must contain the date and time the mail enters the processing facility.

                                                             4
Timeliness of Mail Processing at Processing and                                                      NO-AR-12-010
 Distribution Centers



               Figure 2: Periodicals Improperly Color Coded as Standard Mail10




        Source: OIG, Timely Processing of Mail at the Richmond, VA Processing and Distribution Center (Report
        Number NO-AR-11-008, dated September 13, 2011).

Machine Utilization

Machine utilization and runtimes could be improved on some of the Automated Flat
Sorting Machines, Automated Package Processing System, and Small Parcel and
Bundle Sorter machines that would allow for processing mail timely. By increasing
machine runtimes, P&DCs could process more mail and further reduce delayed mail
volumes. Additionally, delayed mail volumes can be reduced by automating
machineable mail instead of processing it manually (see Figures 3 and 4).




10
     Periodicals are not Standard Mail and should not be color coded.

                                                            5
Timeliness of Mail Processing at Processing and                                                    NO-AR-12-010
 Distribution Centers


                                       Figure 3: Tray Takeaway System




      Source: OIG, Efficiency Review of the Cleveland OH Processing and Distribution Center (Report Number NO-
      AR-12-005, dated June 5, 2012).The tray takeaway system located at each Delivery Barcode Sorter has not
      been used for more than a year. Using this system would reduce mail processing times.

                                     Figure 4: Manual Operations




    Source: OIG, Efficiency Review of the Cleveland OH Processing and Distribution Center (Report Number NO-
    AR-12-005, dated June 5, 2012). An employee sorting machineable letters in the manual flat operation at the
    Cleveland P&DC. This mail could be processed more efficiently and sooner if processed on automated
    equipment.



                                                        6
Timeliness of Mail Processing at Processing and                                                      NO-AR-12-010
 Distribution Centers




Mail Transport Equipment Congestion

Congestion caused by MTE can lead to longer processing times resulting in mail delays.
Observations from previous audits revealed floor congestion caused by unprocessed
MTE throughout the facility in staging areas, aisles, and other areas preventing the
efficient flow of mail that caused mail delays (see Figure 5).

                                        Figure 5: Unprocessed MTE




      Source: OIG, Poor mail flow and floor congestion caused by unprocessed MTE. Picture taken at Pittsburgh
      Processing and Distribution Center (June 26, 2012).

Operational Adjustments During Consolidations

Failure to make proper adjustments to some operating plans during consolidation
implementations contributed to mail delays. For instance, the Lima, OH, to Toledo, OH,
consolidation resulted in delayed mail increasing by 136 percent during the 3 months
following the consolidation. Delayed mail and other service degradations were due in
part to trips leaving the Toledo, OH P&DC late and mail being resorted on the dock (see
Figure 6).

In another case, the Frederick, MD, to Baltimore, MD,11 consolidation resulted in
delayed mail increasing by nearly 200 percent This occurred, in part, because
management did not adequately plan for post-consolidation transportation needs before
implementing the consolidation and did not adjust transportation schedules during the
consolidation.

11
     Frederick, MD to Baltimore, MD, Area Mail Processing Consolidation, NO-AR-12-006 dated July 3, 2012.

                                                          7
Timeliness of Mail Processing at Processing and                                                   NO-AR-12-010
 Distribution Centers




                                         Figure 6: Dock Sortation




       Source: OIG, Implementation of Lima, OH to Toledo OH Area Mail Processing Consolidation (Report Number
       EN-AR-11-004, dated March 31, 2011). Trips were late due to drivers resorting mail on the dock.

Mail Visibility

Mail processing managers did not always have sufficient information regarding mail
processing data. Managers and employees said the availability of data is generally good
but could be improved. For example, data from IMb is not readily available for 7 to
10 days. Because this is not a real-time system, most data can only be used for ‘after-
the-fact’ analysis. Additionally, some mailers using IMb have more access to real-time
data on mail processing and delivery than is available to Postal Service employees in
the plants. Improving access and timeliness of mail processing data could allow
managers to identify potential mail processing problems and avoid mail delays.

Service Scores

We identified delayed mail and overall FHP mail volume at the 43 largest P&DCs in the
mail processing network. The median amount of delayed mail in FY 2012 was
2.1 percent of total FHP volume. We found that the 21 P&DCs with the highest volumes
of delayed mail, or those above the median,12 did not achieve the same level of IMb
service performance as the 21 P&DCs with lower volumes of delayed mail (see Table
3).


12
     There were 21 plants above the median and 21 plants below the median.

                                                         8
Timeliness of Mail Processing at Processing and                               NO-AR-12-010
 Distribution Centers



    Table 3: IMb Service Performance and Delayed Mail for the 43 Largest P&DCs

                                      P&DCs                   IMb Service
                                                              Performance
                21 large plants with HIGH delayed mail             85.20%
                21 large plants with LEAST delayed mail            91.32%
                Difference                                          -6.12%
                Source: iMAPS.

High volumes of delayed mail adversely impacts mailers and other Postal Service
customers, negatively impacts operational efficiency, and could result in additional
revenue losses.

Other Matters

We interviewed 20 Postal Service managers, supervisors, and specialists at the plant,
district, and area levels to determine whether the data systems used to evaluate mail
processing were adequate for their needs. They identified the following data systems
(see Appendix D) as critical to managing mail processing operations and tracking
delayed mail:

   EDW.
   External First-Class Measurement System.
   Mail Condition Reporting System.
   Mail History Tracking System.
   Run Plan Generator.
   iMAPS.
   Web End of Run Reporting System.
   Web Management Operating Data System.

Some employees told us that data are generally accurate but sometimes not available
or reliable across systems for decision making. For example, Postal Service officials
told us the following:

   There are not enough data available on flats.

   The Mail History Tracking System data are accessible for 3 weeks but should be
    available for a longer period.

   Many employees have limited access to systems within EDW and they need the
    ability to create, edit, and share queries with co-workers within these systems.




                                                  9
Timeliness of Mail Processing at Processing and                               NO-AR-12-010
 Distribution Centers



   WebEOR data are accurate, but EDW data do not match WebEOR data.

   EXFC data are inconsistent from one day to the next.

Recommendations

We recommend the manager, Processing Operations:

1. Evaluate mail processing operations for additional opportunities to decrease delayed
   mail by increasing the use of automation, clearing floor congestion, and optimizing
   operating plans.

2. Ensure that field personnel are properly trained in the color coding of Standard Mail
   as well as the counting and reporting of delayed mail in accordance with policies.

3. Increase investment in and employee access to the Intelligent Mail barcode tracking
   system or other tools to assist management with identifying potential mail processing
   problems that could result in delayed mail.

Management’s Comments

Management agreed with the recommendations in the report. Specifically, in response
to recommendation 1, management stated that initiatives are underway and, effective
October 2012 through August 2013, additional initiatives will increase the use of
automation, reducing on-hand and delayed mail volumes. In response to
recommendation 2, effective November 2012 through January 2013, management will
conduct training regarding color-coding procedures for craft and management through
service talks and webinars. In response to recommendation 3, effective
November 2012, management will develop FIFO exception diagnostics within the
Service Performance Diagnostics (SPD) tool and provide SPD training webinar for field
employees, supervisors, managers, and In-Plant Support staff. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations and corrective actions should resolve the issues identified in the
report.




                                                  10
Timeliness of Mail Processing at Processing and                                                      NO-AR-12-010
 Distribution Centers



                                 Appendix A: Additional Information

Background

Despite continued success in generating new package delivery revenue, improving
efficiency, and reducing costs, the Postal Service ended Quarter 3 (April 1–June 30)
with a net loss of $5.2 billion, compared to a net loss of $3.1 billion for the same period
last year. Contributing significantly to the quarter’s $5.2 billion loss was $3.1 billion in
expense for the legislatively mandated prefunding of retiree health benefits. There has
been a continual decline in mail volume since peaking at 213 billion pieces in 2006.
Total mail volume of 38.5 billion pieces, for Quarter 3, 2012, decreased 1.4 billion
pieces, or 3.6 percent, from the same period in 2011. This reflects the continued decline
of FCM (volume decline of 4.4 percent) due to the ongoing shift of communications and
transactions to electronic alternatives. While there is a decline in FCM volume, Standard
Mail volume accounts for about 50 percent of all mail volume and 27 percent of the
Postal Service’s annual revenue.

The Postal Service measures service performance in terms of speed and reliability.
Single-piece FCM includes letters, flats, and parcels and is measured from collection
box drop point to delivery. Standard Mail is a class of mail consisting of mailable matter
that is not required to be mailed as FCM or Periodicals.13 Standard Mail service
performance is tracked by an IMb which documents the arrival time at a designated
postal facility to start the clock, and a scan by an external, third-party reporter to stop
the clock. This data are collected and provided to an independent, external contractor to
calculate service measurement. 14

Objective, Scope, and Methodology

Our objective was to assess the timeliness of mail processing at P&DCs. To meet our
objective, we conducted interviews; performed analyzed mail volumes, workhours, and
trends; and conducted observations at the North Houston and St. Louis P&DCs. We
also reviewed prior OIG reports with regard to the timely processing of mail over the last
2 years. In addition, we conducted data collection interviews with Postal Service
employees to be used in a future capping report on the utilization of data systems. We
used computer-processed data from the MCRS, iMAPS,15 EDW, and Management
Operating Data System. We pulled and reported on data from October 1, 2010, through
June 30, 2012, for the 43 largest plants in the network, which processes 39 percent of
the mail. We did not test controls over these systems.

We conducted this performance audit from May through September 2012 in accordance
with generally accepted government auditing standards and included such tests of

13
   Service performance for Periodicals (for example, publications) and Package Services, which includes Parcel
     ®                                    ®
Post , Bound Printed Matter, Media Mail and Library Mail is measured from entry into the postal system to delivery.
14
   The system used for this reporting is called iMAPS.
15
   IMb is not used by all consumers at this time.

                                                         11
Timeliness of Mail Processing at Processing and                               NO-AR-12-010
 Distribution Centers


internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 23, 2012, and included their
comments where appropriate.

Prior Audit Coverage

                                                           Final
                                                          Report         Monetary
            Report Title              Report Number        Date           Impact
  Postal Service Performance         NO-AR-11-007        9/7/2011         $10,900,000
  During the 2010 Fall Mailing
  Season
  Report Results: During the 2010 Fall Mailing Season, the U.S. Postal Service had
  more than 3.4 billion delayed mailpieces, a 37 percent increase compared to the
  same period last year. Approximately 95 percent of this delayed mail was Standard
  Mail. This adversely impacted service and resulted in approximately $10.9 million in
  revenue at risk. Management agreed with the recommendations and indicated they
  will develop checklists, action plans, and scheduling models to assist plant
  management in planning for fall mail volume variations.
  Timely Processing of Mail at       NO-AR-11-008        9/13/2011                 None
  the Richmond, VA Processing
  and Distribution Center
  Report Results: The Richmond P&DC experienced difficulties with timely
  processing of mail during FY 2010 and Quarter 1 FY 2011. Delayed mail volume
  rose from 22.6 million to 54.2 million pieces over a two year period. Management
  agreed with the recommendations and took action to address delayed mail
  concerns, developed a scheduling model to assist plant management in aligning
  resources with workload, filled vacant craft positions, and appointed a new plant
  manager. To increase machine run times, they established daily tracking
  mechanisms to monitor machine throughputs, runtime, and productivities.
  Consolidation of Mail               NO-AR-12-003        1/20/2012          $4,828,156
  Processing Operations at the                                          (1 year savings)
  Mansfield, OH Customer
  Service Mail Processing
  Center




                                                  12
Timeliness of Mail Processing at Processing and                                NO-AR-12-010
 Distribution Centers



                                                            Final
                                                           Report         Monetary
             Report Title            Report Number          Date            Impact
  Report Results: A business case supporting the consolidation exists, producing a
  first year savings of approximately $4.8 million if employees are successfully
  repositioned. We recommended that Postal Service management identify
  repositioning plans for all impacted employees at the Mansfield CSMPC and
  continue to monitor and take necessary actions to process mail in a timely fashion
  at the Cleveland P&DC.
  Oxnard, CA Processing and          NO-AR-12-004         3/6/2012           $2,603,070
  Distribution Facility                                                         (1st year
  Destinating Mail Consolidation                                                savings);
                                                                             $3,093,888
                                                                            (subsequent
                                                                                  years)
  Report Results: A business case exists to support the consolidation which should
  produce a cost savings of about $2.6 million the first year and $3.1 million in
  subsequent years. Management agreed with our recommendations to monitor
  customer service measurement, 24-hour clock indicators, delayed mail, and staffing
  levels to ensure mail is processed timely.




                                                  13
Timeliness of Mail Processing at Processing and                                                          NO-AR-12-010
 Distribution Centers



                                        Appendix B: Other Impacts

We conservatively estimated that 1 percent of the mail that failed to meet service
performance standards (or about 54 million pieces of mail) is at risk of diversion to
methods of delivery outside the Postal Service. We determined that about
$17.3 million16 of the revenue associated with the failed mailpieces is at risk of loss (see
Table 4).

                                         Table 4: Revenue at Risk17

                  Finding                           Impact Category                         Amount
                Delayed Mail                         Revenue at Risk                      $17,330,587


Should customer service be negatively impacted by high delayed mail volumes, or if
customers experience delays with their mailings, it could cause some to seek alternative
delivery methods, further decreasing both mail volume and revenue.

We evaluated IMb service performance for the 1st 3 Quarters in FY 2012 at the
43 largest P&DCs. We identified the median, or middle, P&DC based on delayed mail to
FHP volume ratio. Those P&DCs with delayed mail volumes above the median
performed lower than the P&DCs with delayed mail volumes below the median on the
IMb service performance standards. Specifically, those P&DCs with higher delayed
mail volumes were 6 percentage points below their counterparts in meeting
service performance standards. The 21 P&DCs with least delayed mail volumes
scored 91 percent on time, while the P&DCs with high delayed mail volumes scored
only 85 percent on time (see Table 3).

While service performance improved over the last 2 quarters, there were still more than
5 billion pieces of mail that failed to meet established service standards during the
period of our review (see Table 5).




16
   We conservatively estimated the revenue at risk for mailers selecting alternative delivery methods as 1 percent of
IMb failed pieces of more than 5 billion by the average revenue per mailpiece of 32 cents (5,415,808,532 x .01 =
54,158,085 x .32 = $17,330,587). This methodology has been used in a previous OIG issued report (Postal Service
Performance During the Fall Mailing Season [Report Number NO-AR-11-007, dated September 7, 2011]).
17
   Revenue the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for services
currently provided by the Postal Service).



                                                           14
Timeliness of Mail Processing at Processing and                               NO-AR-12-010
 Distribution Centers



                         Table 5: National IMb Service Performance

       Quarters        Failed Pieces          On-Time       Total Pieces    On-Time
                                               Pieces
      4, FY 2011       1,548,284,486         7,913,874,329 9,462,158,815     83.64%
      1, FY 2012       2,404,721,200        10,389,360,652 12,794,081,852    81.20%
      2, FY 2012       1,151,914,344        11,710,035,046 12,861,949,390    91.04%
      3, FY 2012         310,888,502         6,210,316,433 6,521,204,935     95.23%
      Total            5,415,808,532        36,223,586,460 41,639,394,992    86.99%
     Source: iMAPS.




                                                  15
Timeliness of Mail Processing at Processing and                                                     NO-AR-12-010
 Distribution Centers


                                  Appendix C: Delayed Mail Trends
                 Table 6: Delayed Mail Totals as a Percent of FHP Volume18

                                                               FY 2010          FY 2011        FY 2012 Quarters
       Delayed %                                             Delayed Mail     Delayed Mail      1, 2, 3 Delayed
        Ranking                    Plant                     Percentage       Percentage       Mail Percentage19
            1                                                        6.6%            12.0%                   8.0%
            2                                                        7.6%             9.6%                   7.0%
            3                                                        1.3%             3.3%                   5.2%
            4                                                        2.8%             8.3%                   5.1%
            5                                                        9.8%            12.7%                   5.1%
            6                                                       11.7%             9.5%                   4.6%
            7                                                       10.0%            13.9%                   4.4%
            8                                                        3.2%             1.2%                   4.3%
            9                                                        5.6%             7.5%                   3.9%
           10                                                        5.4%             8.3%                   3.9%
           11                                                       11.1%            10.2%                   3.7%
           12                                                        5.1%             6.3%                   3.7%
           13                                                        5.6%             6.3%                   3.7%
           14                                                        3.6%             4.6%                   3.4%
           15                                                        3.8%             6.3%                   3.0%
           16                                                        7.6%             6.6%                   2.8%
           17                                                        1.9%             4.0%                   2.8%
           18                                                        7.1%             3.2%                   2.7%
           19                                                        4.2%             7.6%                   2.7%
           20                                                        4.6%             4.7%                   2.6%
           21                                                        8.3%             7.7%                   2.4%
           22                                                        0.8%             2.6%                   2.1%
           23                                                        0.7%             0.9%                   1.9%
           24                                                        1.9%             1.9%                   1.9%
           25                                                        1.5%             3.8%                   1.8%
           26                                                        1.3%             3.6%                   1.6%
           27                                                        2.8%             8.5%                   1.6%
           28                                                        3.1%             1.4%                   1.6%
           29                                                        1.4%             2.2%                   1.6%
           30                                                        1.1%             2.1%                   1.6%
           31                                                        2.4%             3.4%                   1.4%
           32                                                        3.1%             2.3%                   1.1%
           33                                                        2.5%             0.8%                   1.1%
           34                                                        1.3%             1.1%                   1.1%
           35                                                        1.7%             2.8%                   1.0%
           36                                                        1.6%             2.3%                   1.0%
           37                                                        3.3%             2.0%                   1.0%
           38                                                        1.0%             1.2%                   0.9%
           39                                                        1.5%             0.8%                   0.8%
           40                                                        1.2%             0.7%                   0.7%
           41                                                        3.1%             2.0%                   0.7%
           42                                                        0.3%             0.4%                   0.4%
           43                                                        2.0%             3.9%                   0.3%
     Average Group
        1 Plants                                                     3.8%              4.8%                 2.6%
Source: EDW.




18
   Highlighted plant percentages were the gaining P&DCs in a consolidation that occurred during the respective
period.
19
   FY 2012 data encompasses Quarters 1, 2, and 3. Quarter 4 data were not available at the time of our audit;
however, we reviewed 2 of the 3 months in Quarter 4 and delayed mail percentages were actually lower than the
averages for the Quarters 1 through 3.

                                                        16
Timeliness of Mail Processing at Processing and                                 NO-AR-12-010
 Distribution Centers


                                      Appendix D: Glossary

Enterprise Data Warehouse - The EDW is a repository intended for all data and the
central source for information on retail, financial, and operational performance.
Mission-critical information comes to the EDW from transactions that occur across the
mail delivery system, points-of-sale, and other sources.

External First-Class Measurement System - This is an end-to-end service
performance measurement system, measuring FCM performance from the time mail
enters the mailstream until it is delivered to a household, small business, or Post Office
box.

Intelligent Mail barcode - The IMb is a 65-bar Postal Service barcode used to sort and
track letters and flats.

Mail Condition Reporting System (MCRS) - The MCRS, formerly the Daily Mail
Condition Report, was established as a repository for information related to facility
conditions. Generally, a daily snapshot of conditions at facilities throughout the nation is
taken at the time of day mail volume is at its lowest. Information relating to conditions at
that time, as well as prior day's processing, is reported in the MCRS.

Mail History Tracking System (MHTS) - The MHTS is a Web-based application,
introduced in 2007, that allows the Postal Service to identify missorted, missequenced,
and missent letters and locate exactly where in each tray they are located.

Run Plan Generator (RPG) - The RPG creates a schedule of mail processing and
maintenance runs using a site's preferred machines and sort programs and based on
expected mail volume.

Service Performance Diagnostics - A tool for troubleshooting service measurement
issues within the iMAPs.

Web End-of-Run Reporting System - A software application that allows end users to
retrieve, view, and store various end-of-run statistics from automated mail processing
equipment.

Web Management Operating Data System - A web-enabled application that provides
a systematic approach to gathering, storing, and reporting data pertaining to workload,
workhours, and mail processing machine utilization.




                                                  17
Timeliness of Mail Processing at Processing and                NO-AR-12-010
 Distribution Centers


                           Appendix E: Management’s Comments




                                                  18
Timeliness of Mail Processing at Processing and        NO-AR-12-010
 Distribution Centers




                                                  19
Timeliness of Mail Processing at Processing and        NO-AR-12-010
 Distribution Centers




                                                  20
Timeliness of Mail Processing at Processing and        NO-AR-12-010
 Distribution Centers




                                                  21
